                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A11100070                                                                     Page 1 of 1



                We reviewed an allegation of plagiarism in a CAREER proposal. 1 We wrote the Pf who
         responded asserting with numerous published articles and email correspondence with the authors of
         some ofthose articles that the copied material was common knowledge and he would have had
         permission to use the text if he had asked. However, his response did not explain the absence of
         quotation marks or other means for differentiating the copied material from his original work.

                T,he copying was insufficient to warrant a detailed investigation. We provided the PI a
         warning that his current practices were questionable.

                   Accordingly, this case is closed.




                                                                                                 )

NSF OIG Form 2 (11/02)
